January 25, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Reply Mail Oversight Review – Smyrna Post Office –
         Smyrna, TN (Report Number FF-MA-11-008)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) group’s testing over Business Reply Mail (BRM) at the
Smyrna Post Office, Smyrna, TN (Project Number 11BR003FF002), performed
November 18, 2010. The Smyrna Post Office is in the Tennessee District of the Eastern
Area. At the conclusion of FY 2011, we will summarize the results for all reviews in a
report to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC), which monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the Financial Control and Support
group to oversee the work of the FTC, which conducts tests of key financial reporting
controls. Senior Postal Service leaders use the results to identify and correct internal
control deficiencies and report the overall results to the PRC. We conducted this
oversight review in support of the independent public accountant’s reliance on Postal
Service management’s testing, and overall audit opinions on the Postal Service’s
financial statements and internal controls over financial reporting.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Inspections.1

1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                            Restricted Information
Fiscal Year 2011 Financial Testing Compliance Business Reply Mail               FF-MA-11-008
 Oversight Reviews –Smyrna Post Office – Smyrna, TN


Conclusion

Based on our review of FTC’s work, we determined the analysts properly conducted
and documented their examination of key SOX financial reporting controls. See
Appendix A for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management will have the opportunity to formally respond to the
summary report at that time.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Cathy J. Jenson, manager, at
972-892-4456 or me at 510-285-9024.

 -Signed by Linda J. Libician-Welc
VERIFY authenticity with ApproveI

Linda Libician-Welch
Director, Field Financial – West

Attachments

cc:     Douglas G. Germer
        Corporate Audit and Response Management




                                                    2
                                         Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                           FF-MA-11-008
 Smyrna Business Reply Mail – Smyrna, TN



                                                 APPENDIX A: REVIEW RESULTS

       Site Name                                               Smyrna Post Office
       Finance Number-Unit ID                                  477980-0167
       Location Type                                           BRM
       Scope Period Under Review                               November 18, 2010
       FTC Review Program Version and Date                     FY2011-v1, November 10, 2010
       FTC Team                                                Central


                                                                                             Did FTC       Did the OIG
                                                                                Did FTC     adequately      agree with
                                                               Did the OIG    perform the   document           FTC’s
                                            Did FTC have           have          step in     its work      exceptions/
                                             exceptions/       exceptions/    accordance    performed    findings (or no
                                             findings in      findings that       to its      and the      exceptions/
FTC Review            FTC Review Step/        this step?      FTC did not?     program?      results?       findings)?
Step#/Control #       Step Description         (Yes/No)          (Yes/No)       (Yes/No)     (Yes/No)        (Yes/No)
                     BRM Revenue
30001/108.CA10                                   Yes                No              Yes        Yes            Yes
                     Documentation
                     BRM Insuffiecient
                     Funds and
30002/108.CA11       Transaction                  NA                NA              NA         NA             NA
                     Cancellation in
                     PostalOne!




                                                                      3
                                                           Restricted Information
